APPENDIX A

Note: This disposition is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

BETZAIDA P. JERNIGAN,
Claiman t-Appellan t
v.
ROBERT L. WILKIE, SECRETARY OF
VETERANS AFFAIRS,
Respondent-Appellee

2019-2235

Appeal from the United States Court of
Appeals for Veterans Claims in No. 18-2918,
Judge Amanda L. Meredith.
A1

Decided: April 10, 2020

BETZAIDA P. JERNIGAN, Lake Helen,
FL, pro se.

ROBERT

C.

BIGLER,

Commercial

Litigation Branch, Civil Division, United
States Department of Justice, Washington,
DC, for respondent-appellee. Also represented
by JOSEPH H. HUNT, ALLISON KIDDMILLER, ROBERT EDWARD KIRSCHMAN,
JR.; Y. KEN LEE, JULIE HONAN, Office of
General Counsel, United States Department of
Veterans Affairs, Washington, DC.

A2
<

JERNIGAN v. WILKIE

2

Before PROST, ChiefJudge,
O’MALLEY and TARANTO,
Circuit Judges.
PER CURIAM.
Betzaida P. Jernigan appeals from a
decision of the United States Court of Appeals
for

Veterans

Claims

(“Veterans

Court”)

dismissing her appeal of a January 29, 2018
decision of the Board of Veterans’ Appeals
(“Board”) for lack of jurisdiction. Jernigan v.
Wilkie, No. 18-2918, 2019 WL 273140 (Vet.
App. Jan. 22, 2019). Because the Veterans
Court correctly concluded that it lacked
jurisdiction over Jernigan’s appeal, we affirm.
A3

r
BACKGROUND

Jernigan served on active duty in the
United States Navy from April 1989 until May
1995.
In a decision dated January 29, 2018,
the Board granted Jernigan service connection
for right shoulder arthritis with tendinitis and
right upper extremity cervical radiculopathy.
Resp’t Suppl. App. (“S. App.”) 11-26. In the
“Introduction” section of that decision, the
Board explained relevant procedural history,
including that the issue on appeal before it
was one of several issues addressed by an
earlier, June 2016 Board decision. Id. at 1.
Specifically, the Board indicated that the 2016
A4

decision: (1) remanded Jernigan’s claim for
entitlement to service connection for a right
shoulder disorder (the sole issue before the
2018 Board); and (2) explained
that Jernigan’s “claims of entitlement to
earlier effective dates for' grants of service
connection for gastroesophageal disease, a
lumbar spine disorder, and appendectomy scar
were no longer in appellate status as [she] had
exhausted her remedies.” Id. at 13.
Jernigan filed a Notice of Appeal to the
Veterans

Court,

challenging the

Board’s

January 2018 decision. Jernigan, 2019 WL
273140, at *1. Jernigan later clarified that she

A5

(

JERNIGAN v. WILKIE

3

was only appealing the Board’s January 2018
remarks in its introduction that her earlier
effective date claims for gastroesophageal
disease,

lumbar

spine

disorder,

and

appendectomy scar were not in appellate
status. Id. Because the Board’s 2018 decision
on appeal was favorable to Jernigan, and
because Jernigan stated that she only objected
to statements in that decision regarding a
prior, now final claim, the Veterans Court
ordered Jernigan to show cause why her
appeal should not be dismissed for lack of
jurisdiction. Id.
In response, Jernigan reiterated that
A6

!

she was not challenging the Board’s January
2018 grant of benefits for right shoulder
arthritis.

Instead,

she

disputed

“an

unfavorable conclusion” in the Board’s decision
that, according to Jernigan, changed her
“appeal status relating to a separate matter . .
. submitted on a valid Notice of Disagreement
in June 2014.” Id.
In a decision dated January 22, 2019,
the Veterans Court dismissed Jernigan’s
appeal for lack of jurisdiction. In doing so, the
court explained that the Board’s January 2018
decision was favorable to Jernigan and that
the remarks in the introduction section of the
Board’s decision did not change the appellate
A7

status of her other earlier effective date of
claims. Id. The court further explained that
Jernigan’s earlier effective date claims—for
gastroesophageal disease, a lumbar spine
disorder, and an appendectomy scar—were
previously appealed to the Veterans Court and
were denied. Id. at *1 n.2 (citing Jernigan v.
Shinseki, 25 Vet. App. 220 (2012), affd 521 F.
App’x 931 (Fed. Cir. 2013), cert, denied 572
U.S. 1062 (2014)). Those earlier claims were
not before the Board when it rendered its 2018
decision and are not before this court on
appeal.Jernigan moved for reconsideration by
a panel. S. App. 6. The Veterans Court granted
the motion, and the panel

A8

4

JERNIGAN v. WILKIE

held that the January 2019 single-judge order
would remain the decision of the court. The
court entered final judgment on April 12,
2019. This appeal followed.
DISCUSSION
Our jurisdiction to review Veterans
Court decisions is limited by statute. Pursuant
to 38 U.S.C. § 7292(a), the court may review
“the validity of a decision of the [Veterans]
Court on a rule of law or of any statute or
regulation ... or any interpretation thereof
(other than a determination as to a factual
A9

matter) that was relied on by the [Veterans]
Court in making the decision.” Unless the case
presents a constitutional issue, we “may not
review

(A)

a

challenge

to

a

factual

determination, or (B) a challenge to a law or
regulation as applied to the facts of a
particular case.” 38 U.S.C. § 7292(d)(2). We
have

recognized,

however,

that

the

“jurisdictional reach of the Veterans Court
presents a question of law for our plenary
review.” Maggitt v. West, 202 F.3d 1370, 1374
(Fed. Cir. 2000).
On appeal, the government argues that
we should dismiss this appeal for lack of
jurisdiction

because,

although

Jernigan

asserts in her informal brief that the Veterans
A10

Court’s decision involved the validity or
interpretation of a statute or regulation,
review of the court’s decision makes clear it
did not engage in that type of analysis. Nor
did

it

decide

any

Constitutional issues.1 Instead, the Veterans
Court dismissed Jernigan’s appeal for lack of
jurisdiction.
By

statute,

the

Veterans

Court’s

jurisdiction is limited to review of final Board
decisions that are adverse to the claimant. 38
U.S.C. § 7266(a); Bond v. Derwinksi, 2 Vet.
All

Indeed, Jemigan expressly indicates in her infor­
mal brief that the Veterans Court’s decision did not
decide a constitutional issue. Appellant Informal Br. 1,
item 3.

U.S.C. 7266(A); Bond v. Derwinsksi, 2 Vet.
App. 376, 377 (1992). A claimant therefore
must be “ad-

*'

A12

JERNIGAN v. WILKIE

5

versely affected” by a decision of the Board in
order to appeal to the Veterans Court.
Zevalkink v. Brown, 102 F.3d 1236, 1243 (Fed.
Cir. 1996) (noting that the Veterans Court
“considers this a ‘standing5 requirement and
that a party must, therefore, show some actual
or

threatened

injury”).

Accordingly,

the

Veterans Court lacks jurisdiction over Board
decisions that are favorable to the veteran.
Woods v. Shinseki, 492 F. App’x 112, 114 (Fed.
Cir. 2012) (“Because the Board’s holding
reinstated his benefits and was therefore
favorable to [the veteran], the Veterans Court
appropriately dismissed his appeal.”). Here,
A13

the Board’s January 2018 decision that
Jernigan appealed to the Veterans Court
addressed a single issue: entitlement to service
connection for a right shoulder disorder. The
Board granted that claim, awarding service
connection for right shoulder arthritis with
tendinitis and right upper extremity cervical
radiculopathy.
Before the Veterans Court, Jernigan
made clear that she is not dissatisfied with the
Board’s decision in this appeal—only with its
recitation of procedural history relating to
other claims that

A14

were separately adjudicated in full.2

Because the Board’s 2018 decision granted
Jernigan the benefits she sought and thus was
entirely in her favor, there was no adverse
action she could appeal to the VeterA15

2

As the Veterans Court noted, Jernigan’s earlier

effective date claims for gastroesophageal reflux
disease, a lumbar spine disorder, and an appendectomy
scar were considered and denied by the Board in 2010,
the Veterans Court in 2012, and this court in 2013.
Jernigan, 2019 WL273140, at *1, n.2. To the extent
Jemigan’s informal brief seeks to assert clear and
unmistakable error relating to those claims, she cannot
do so for the first time on appeal.

;

JERNIGAN v. WILKIE

6

ans

Court.

See

38

U.S.C.

§

7266(a).

Accordingly, the Veterans Court did not err
when it dismissed Jernigan’s appeal for lack of
jurisdiction.
CONCLUSION
Because the Veterans Court correctly
concluded that it lacked jurisdiction over
Jernigan’s appeal, we affirm.
AFFIRMED
COSTS
No costs.
A16

APPENDIX B

;•

■;

Not Published

UNITED STATES COURT OF APPEALS FOR
VETERANS CLAIMS
NO: 18-2918
BETZAIDA P. JERNIGAN, APPELLANT,
V.
ROBERT L. WILKIE,
SECRETARY OF VETERANS AFFAIRS,
APPELLEE.
JUDGMENT
The Court has issued a decision in this
case, and has acted on a motion under Rule 35
of the Court’s Rules of Practice and Procedure.

Under Rule 36, judgment is entered and
effective this date.
B1

FOR THE COURT

Dated: April 12, 2019

GREGORY O. BLOCK
Clerk of the Court

By: /s/ Juanita Coghill
Deputy Clerk
Copies to:
Betzaida P Jernigan
VA General Counsel (027)

B2

APPENDIX C

/

/

(

Not published
NON-PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR VETERANS CLAIMS

NO. 18-2918
BETZAIDA P. JERNIGAN,

APPELLANT,

V.

ROBERT L. WILKIE,
SECRETARY OF VETERANS AFFAIRS,

APPELLEE.
Before BARTLEY, MEREDITH, and TOTH,
Judges.
ORDER

Cl

/

Note: Pursuant to U.S. Vet. App. R. 30(a), this
action may not be cited as precedent.

In a January 22, 2019, dispositive order,
the Court dismissed for lack of jurisdiction the
appellant's appeal of a January 29, 2018,
decision of the Board of Veterans' Appeals
granting VA disability benefits for right
shoulder arthritis with tendinitis and right
upper extremity cervical radiculopathy. On
January 24, 2019, the appellant filed a timely
motion for panel decision. The motion for
decision by a panel will be granted.
Based on review of the pleadings, it is
the decision of the panel that the appellant
fails to demonstrate that 1) the single-judge
C2

order overlooked or misunderstood a fact or
point of law prejudicial to the outcome of the
appeal,

2)

there

is

any

conflict

with

precedential decisions of the Court, or 3) the
appeal otherwise raises an issue warranting a
precedential decision. U.S. VET. APP. R. 35(e);
see also Frankel v. Derwinski, 1 Vet.App. 23,
25-26 (1990).
Absent further motion by the parties or
order by the Court, judgment will enter on the
underlying single-judge order in accordance
with Rules 35 and 36 of the Court's Rules of
Practice and Procedure.

Upon consideration of the foregoing, it
is further
C3

ORDERED, by the panel, that the
single-judge order remains the decision of the
Court.
DATED: March 21, 2019
Copies to:
Betzaida P Jernigan
VA General Counsel (027)

2

C4

PER CURIAM

APPENDIX D

!

;

■<:

Designated for electronic publication only

UNITED STATES COURT OF APPEALS FOR
VETERANS CLAIMS
No. 18-2918
BETZAIDA P. JERNIGAN, APPELLANT,
V.
ROBERT L. WILKIE,
SECRETARY OF VETERANS AFFAIRS,
APPELLEE.
Before MEREDITH, Judge.

ORDER

Note: Pursuant to U.S. Vet. App. R. 30(a),
this action may not be cited as precedent.
D1

The pro se appellant, Betzaida P.
Jernigan, filed a Notice of Appeal (NOA) from
a January 29, 2018, decision in which the
Board of Veterans’ Appeals (Board) granted
benefits for right shoulder arthritis with
tendinitis and right upper extremity cervical
radiculopathy.

On August 7, 2018, the Secretary served
the record before the agency (RBA) on the
appellant and filed notice with the Court that
he had done so. Several days later, the
appellant filed a dispute with the RBA, in
which she stated that she was appealing "only
the part of the Board's [January 2018]
remarks in the introduction that concluded
D2

.

.i

that [former] claims of entitlement for an
earlier effective date [prior to October 31,
2001,] for the grants of service connection for
"gastroesophageal reflux disease (GERD), a
lumbosacral strain, and an appendectomy scar
were not in appellate status.1 Appellant's RBA
Dispute at 1 (alterations in original).

Because the Board decision on appeal is
favorable to the appellant, and because the
appellant stated in her RBA dispute that she
D3
The Court notes that, in the course of the RBA
dispute, the Court has issued several orders, the parties
had each filed several additional responses, and the
parties have participated in a conference with members
of the Court’s Central Legal Staff. This matter arrived
in chambers of December 18, 2018,

only objected to statements in the introduction
of the Board's decision regarding a prior, now
final, claim, on December 20, 2018, the Court
ordered the appellant to show cause why her
appeal should not be dismissed for lack of
jurisdiction.
The appellant filed her response on
January 4, 2019. She states that her dispute is
not with the Board's January 2018 grant of
benefits for right shoulder arthritis, but with
"an unfavorable conclusion in the January 29,
2018 [Board decision] changing [her] appeal
status relating to a separate matter . . .
submitted on a valid Notice of Disagreement"
in June 2014. Appellant’s January 4, 2019,
Response at 3.
D4

y

However, the Board in January 2018
did not change the "appellate status" of any of
the appellant's claims. Rather, in its recitation
of the procedural history of the appellant's
appeal, the Board explained that, in a June
2016 decision, the Board had "explained why
the claims of entitlement to earlier effective
dates for the grants of service connection for
[GERD],

a

lumbar

spine

disorder,

and

appendectomy scar were no longer in appellate
statust,] as the [appellant] had exhausted her
remedies." January 29, 2018, Board Decision.

D5

2

As noted to the December 20, 2018, order, the

appellant is before this Court for the second time. In

June 2012, a panel of the Court affirmed a
March 23, 2010, Board decision that denied
her request for an effective date prior to
October 31, 2001, for the award of benefits for
GERD,

a

lumbosacral

strain,

and

an

appendectomy scar Jernigah v. Sjhinseki, 25
Vet. App. 200 (2012, affd 521 F. Appx. 931
(Fed. Cir. 2013, cert, denied 572 U.S. 1062
(2014). That decision is final.
Because this Court adheres to the case
or

controversy

jurisdictional

restraints

provided for in Article III of the U.S.
Constitution, the Board decision sought to be
appealed must be adverse to the appellant.
See Mokal v. Derwinski, 1 Vet.App. 12, 13-15
(1990); see also McRae v. Brown, 9 Vet.App.
D6

229, 233 (1996) (per curiam). Here, the
January 2018 Board decision on appeal is
favorable to the appellant: The Board granted
benefits for a right shoulder disability with
upper extremity cervical radiculopathy, which,
according to the Board, was the only claim
that was before it. The appellant expressly
does not challenge that decision. Because the
Board's decision was fully favorable to the
appellant, there is no adverse decision that
she may appeal to the Court. See 38 U.S.C. §
7266; see also Medrano v. Nicholson, 21
Vet.App. 165, 170 (2007); Bond v. Derwinski, 2
Vet.App. 376, 377 (1992) (per curiam order)
("This Court's jurisdiction is confined to the
review of final Board ... decisions which are
D7

adverse to a claimant.").
Upon consideration of the foregoing, it is
ORDERED that this appeal is DISMISSED for
/

lack of jurisdiction.
DATED: January 22, 2019

BY THE COURT:

s/ AMANDA L. MEREDITH
Judge
Copies to: Betzaida P. Jernigan
VA General Counsel (027).

D8

I

APPENDIX E

DEPARTMENT OF VETERANS AFFAIRS
Board of Veterans' Appeals
Washington DC 20001
May 3, 2018
In Reply Refer To: 01C2
JERNIGAN, Betzaida P.
Ms. Betzaida P. Jernigan
471 East Kicklighter Road
Lake Helen, FL 32744

Ruling on Motion
Dear Ms. Jernigan:
This letter responds to your Motion for
Reconsideration of the Board of Veterans’
Appeals (Board) decision of January 29, 2018.
El

The Motion was received at the Board on
February 8, 2018. I am also in receipt of your
additional

correspondence.

The

items

of

correspondence have been associated with
your file. I have been delegated the authority
to rule on the Motion. See 38 C.F.R. §
20.102(a).
A Board decision is final unless the
Board’s Chairman, or her delegate, orders
reconsideration to correct an obvious error in
the record. 38 U.S.C. §§ 7103, 7104; 38 C.F.R.
§§ 20.1000, 20.1001. Under 38 C.F.R. §
20.1000, the discretion of the Chairman or her
delegate to

grant reconsideration of an

appellate decision is limited to the following
grounds: (a) upon allegation of obvious error of
E2

fact or law; (b) upon discovery of new and
material evidence in the form of relevant
records or reports of the service department
concerned; or (c) upon allegation that an
allowance of benefits by the Board has been
materially influenced by false or fraudulent
evidence submitted by or on behalf of the
appellant. I will consider your Motion under
both the theory that the Board committed an
obvious error of fact or law (38 C.F.R. §
20.1000(a)) and that you have submitted new
and material evidence (38 C.F.R. § 20.1000(b)).
The Chairman, or her delegate, will
order reconsideration of an appellate decision
upon the ground of “obvious error of fact or
E3

law” only when it is shown that the Board
committed an error in its decision which, if
corrected, would change the outcome of the
appeal. Obvious (or clear and unmistakable)
error is a very specific and rare kind of error.
It is the kind of error of fact or law that, when
called to the attention of adjudicators, compels
the conclusion, with which reasonable minds
could not differ, that the result would have
been manifestly different but for the error.
Mere allegations that previous adjudicators
improperly

weighed

and

evaluated

the

evidence are inadequate to meet the standard
of “obvious error,” as are broad allegations of
“failure to follow the regulations” or “failure to
give due process,” or any other general, nonE4

specific claim of “error.” SeeFugo v. Brown, 6
Vet. App. 40, 44 (1993). The alleged error(s) of
fact or law must be described with some
specificity and persuasive reasons must be
given as to why the result would have been
manifestly different but for the alleged error.
Id. Moreover, reconsideration will not be
granted on the basis of an allegation of factual
error where there is a plausible basis in the
record for the factual determinations in the
Board

decision

at

issue.

This

includes

situations in which a Board decision reflects
the reasonable judgment of one or more of its
Veterans

Law

Judges

regarding

the

credibility, probative value, and weight of the
evidence.
E5

i

In its January 29, 2018, decision, the
Board granted your appeal for entitlement to
service

connection

for

a

right

shoulder

disorder, to include as secondary to service
connected cervical spine degenerative disc
disease. This is a fully favorable finding and
not

a

proper

basis

for

reconsideration.

Therefore, your Motion with respect to this
issue does not meet the requirements for
reconsideration, and is dismissed.
I note your request for an earlier
effective date regarding this claim. If you
would like to file a new claim, or a claim to
reopen, you may submit that claim and any
pertinent evidence to your local VA regional
office.
E6

I hope this information is helpful to you.
Should you have any questions concerning this
letter, you may contact the Board’s Status
Line at 1-800-923-8387.

Sincerely yours,
s/ K. Osborne
Deputy Vice Chairman
Board of Veterans’ Appeals

Enclosure:
Your Appellate Rights Relating to Our Denial
of Your Motion for Reconsideration.

E7

! )

d xiaNaddv

Citation Nr: 1625132
Decision Date: 06/22/16

Archive Date:

07/11/16
DOCKET NO. 04-03 446A

)

DATE

)

■)

)

On appeal from the
Department of Veterans Affairs Regional
Office in St. Petersburg, Florida
THE ISSUES
1.
right

Entitlement to service connection for a
shoulder

disorder,

to

include

as

secondary to service-connected chronic cervical
spine strain with degenerative disc disease
(cervical spine disability).
FI

2.

Entitlement to service connection for

labyrinthitis with vertigo.
3.

Entitlement to service connection for

tension headaches, to include as secondary to
service-connected cervical spine disability.
4.

Entitlement to an effective date earlier

than November 22, 2003 for the grant of a
total disability rating based on individual
unemployability

due

to

service-connected

disabilities (TDIU).

WITNESS AT HEARING ON APPEAL
The Veteran
ATTORNEY FOR THE BOARD
C. Smith, Associate Counsel

F2

INTRODUCTION

The Veteran served on active duty in the U.S.
Navy from April 1989 until May 1995.
This case comes before the Board of Veterans’
Appeals (Board) on appeal from April 2005,
August 2006, and September 2008 rating
decisions by the Department of Veterans
Affairs (VA) Regional Office (RO) in St.
Petersburg, Florida.

The issue of entitlement to service connection
for a right shoulder disorder was remanded by
the Board in July 2009. All issues on appeal
were again remanded by the Board in June
2014, and have since been returned to the
F3

Board for farther appellate review.

In October 2009 the Veteran presented
testimony before a Veterans Law Judge (VLJ)
who is no longer at the Board. In an August
2015 letter*

VA informed the Veteran that the prior VLJ
was no longer at the Board, and the Veteran
elected to have another hearing before the
undersigned VLJ in October 2015.

A

transcript of both hearings is of record.

At the 2015 hearing, the Veteran asserted that
additional claims previously denied by the
Board in July 2009 remained on appeal. A
F4

review of the record shows that in July 2009,
the Board denied the Veteran's claims of
entitlement to earlier effective dates for grants
of service connection for gastroesophageal
disease,

a

lumbar

appendectomy scar.

spine

disorder,

and

The Veteran appealed

that decision to the United States Court of
Appeals for Veterans Claims (Court) who
affirmed the Board's decision, and then to the
United States Court of Appeals for the Federal
Circuit who affirmed the Court, and then to
the Supreme Court of the United States where
certiorari was denied.

See Jernigan v.

Shinseki, 25 Vet. App. 220 (2012); Jernigan v.
Shinseki, 521 Fed. Appx. 931 (2013); Jernigan
v. Shinseki, 134 S. Ct. 1871 (2014). The
F5

Veteran was denied the relief sought at every
level, and those issues are no longer before the
Board. The issues properly before the Board
are reflected on the title page of this
document.

This case consists of documents in the
Veterans

Benefits

Management

(VBMS) and in Virtual VA.

System

The Board has

reviewed all relevant documents in VBMS and
the Virtual VA electronic record.

All

documents in Virtual VA are duplicative of
those in VBMS, or not relevant to the issues
on appeal.

The issues of entitlement to service connection
F6

for a right

shoulder disorder,

and for

labyrinthitis are addressed in the REMAND
portion of the

decision

below

and are

REMANDED to the Agency of Original
Jurisdiction (AOJ).

FINDINGS OF FACT
1. The probative medical evidence of record
shows that the Veteran's tension headaches
are

etiologically

related to

her

service-

connected cervical spine disorder.

2. The probative medical evidence of record
shows that the Veteran was unable to work
due to service connected disabilities on March
1, 2003.
F7

3. The Veteran met the schedular criteria for
TDIU on March 14, 2003.

4.

The Veteran's claim for a TDIU was

received by the RO on January 11, 2006.

CONCLUSIONS OF LAW
1.

The criteria for service connection for

tension headaches as secondary to a serviceconnected cervical spine disability are met. 38
U.S.C.A. §§ 1110, 1131, 5107 (West 2014); 38
C.F.R. §§ 3.102, 3.303, 3.310 (2015).

2.

The criteria for an effective date earlier

than November 22, 2003 for the grant of a
TDIU are not met. 38 U.S.C.A. §§ 5101, 5110
F8

(West 2014); 38 C.F.R. §§ 3.102, 3.400 (2015).

REASONS AND BASES FOR FINDINGS
AND CONCLUSIONS
Duties to Notify and Assist
Generally, upon receipt of a substantially
complete application for benefits, VA must
notify the claimant of what information or
evidence is needed in order to substantiate the
claim, and it must assist the claimant by
making reasonable efforts to get the evidence
needed. 38 U.S.C.A. §§ 5103(a), 5103A (West
2014); 38 C.F.R. § 3.159(b) (2015); Quartuccio
v. Principi, 16 Vet. App. 183, 187 (2002). The
notice required must be provided to the
claimant before the initial unfavorable
F9

decision on a claim for VA benefits, and it
must (1) inform the claimant about the
information and evidence not of record that is
necessary to substantiate the claim; (2) inform
the claimant about the information and
evidence that VA will seek to provide; and (3)
A

inform the claimant about the information and
evidence the claimant is expected to provide.
38 U.S.C.A. § 5103(a); 38 C.F.R. § 3.159(b)(1);
Pelegrini v. Principi, 18 Vet. App. 112, 120
(2004).

With regard to the Veteran's claim of
entitlement to service connection for tension
headaches, in light of the Board's favorable
decision, any deficiencies in VA's duties to
F10

notify and assist the Veteran are moot.

With regard to the Veteran's claim for an
earlier effective date for the grant of a TDIU,
where an underlying claim has been granted
and there is disagreement as to "downstream"
questions, the claim has been substantiated,
and there is no need to provide additional §
5103 notice, nor is there prejudice from absent
notice. Hartman v. Nicholson, 483 F.3d 1311,
1314-15 (Fed. Cir. 2007); VAOPGCPREC 82003 (Dec. 22, 2003).

In addition, the duty to assist the Veteran has
also been satisfied in this case. The Veteran's
service treatment and personnel records, as
Fll

well as identified and available post-service
medical records are in the claims file.

The

Veteran has not identified any available,
outstanding records that are relevant to the
claims decided herein.

The record also includes written statements
provided by the Veteran. Although there are
outstanding Social Security Administration
(SSA) records, the Board finds that it may
proceed to adjudicated the earlier effective
date claim. The resolution of this issue turns
on the date of the Veteran's claim, as even if
these documents indicated an earlier date of
entitlement, it would not provide for an earlier

F12

effective date. For these reasons, the Board
concludes that VA has fulfilled the duty to
assist the Veteran in this case.

The Veteran was also provided with an
opportunity to set forth her contentions during
the hearing before a VLJ. A Decision Review
Officer or VU who chairs a hearing must
fulfill two duties: (1) the duty to fully explain
the issues; and (2) the duty to suggest the
submission of evidence that may have been
overlooked.

38 C.F.R. § 3.103(c)(2) (2015);

Bryant v. Shinseki, 23 Vet. App. 488, 496-97
(2010).

At the Board hearing, the VLJ

outlined the issues on appeal and the hearing
focused on the elements necessary to
F13

substantiate
additional

the

claims.

subsequent

Additionally,

development

was

conducted based on deficiencies in the record,
such

that the

submission

of additional

evidence is not required. As such, the Board
finds that the VLJ complied with the duties
set forth in 38 C.F.R. § 3.103(c)(2). There has
been no allegation to the contrary. The Board
will proceed to address the merits of the claim.

With regard to the Veteran's claim for an
earlier effective date, the Board also finds
compliance with the June 2014 remand
directives. See Stegall v. West, 11 Vet. App.
268 (1998).

In June 2014 the claim for an

earlier effective date was remanded so that the
F14

RO could consider newly received evidence and
issue a supplemental statement of the case. A
review of the Veteran's claims file shows that
all

required

development

has

been

accomplished in accordance with the Board's
remand

The

directives.

Supplemental

Statement

addressing the
Accordingly,

newly

additional

RO
of

issued
the

received
remand

a

Case

evidence.
is

not

warranted.

Hence, there is no error or issue that precludes
the Board from addressing the merits of this
appeal.

Service Connection
F15

The Veteran seeks entitlement to service
connection for tension headaches, which she
asserts are etiologically related to her serviceconnected cervical spine disorder.

Service

connection

is

warranted

for

a

disability that is aggravated by, proximately
due to, or the result of, a service-connected
disease or injury.

38 C.F.R. § 3.310 (2015).

Any additional impairment of earning capacity
resulting from a service-connected condition,
regardless

of

whether

the

additional

impairment is itself a separate disease or
injury

caused

by

the

service-connected

condition, also warrants compensation. Allen
v. Brown, 7 Vet. App. 439 (1995).
F16

The Board must assess the credibility and
weight of all evidence, including the medidal
evidence, to determine its probative value,
accounting for evidence which it finds to be
persuasive or unpersuasive, and providing
reasons for rejecting any evidence favorable to
the Veteran. When there is an approximate
balance of evidence for and against the issue,
reasonable doubt will be resolved in the
Veteran's favor. 38 U.S.C.A. § 5107(b) (West
2014); 38 C.F.R. § 3.102 (2015); Gilbert v.
Derwinski, 1 Vet. App. 49, 53 (1990).

The Veteran is service-connected for a cervical
spine disability, effective April 28, 2004.
F17

The Veteran was afforded a VA examination
in July 2006. At that time she reported that
she had headaches dating back to 1994 that
had continued since.

She stated that her

headaches would begin in the cervical region
of her neck and wrap around to her temporal
regions. Upon review of the Veteran's claims
folder and an in-person examination, the
examiner diagnosed tension headaches. The
examiner opined that it was as likely as not
that

the

Veteran's

headaches

were

proximately due to her service-connected
cervical spine disorder, as radiating tensiontype headaches were consistent with cervical
disc disease.
F18

Based on the foregoing, the Board finds that
entitlement to service connection for tension
headaches is warranted.

The Veteran is

currently diagnosed with tension headaches as
indicated by the July 2006 examiner. See 38
C.F.R. § 3.303(a). The July 2006 examiner has
opined that the Veteran's tension headaches
are etiologically related to the Veteran's
service-connected cervical spine disability.
The Board finds the opinion of the July 2006
examiner to be adequate, as it was based on a
full review of the Veteran's medical history,
claims file, and in-person examination, and
was also supported by an adequate rationale.
-

; V ,

There is no conflicting medical opinion of

F19

record regarding whether the Veteran's
tension headaches are caused by the serviceconnected cervical spine disorder.

Thus, resolving all reasonable doubt in the
Veteran's favor, the Board finds that the
Veteran's tension headaches are etiologically
related to her service-connected cervical spine
disorder.

Having met the criteria for

secondary service connection, entitlement to
service connection for tension headaches as
secondary to service-connected cervical spine
disorder is warranted. 38 U.S.C.A. §§ 1110,
1131, 5107; 38 C.F.R. §§ 3.102, 3.303, 3.310.

Earlier Effective Date
)

F20

The Veteran seeks an effective date earlier
than November 22, 2003 for the grant of a
TDIU.

In essence, she claims that the

effective date should be the date on which she
was determined to be unable to work due to
her service-connected disabilities,

Generally, the effective date of an award of
disability compensation based on an original
claim shall be the date of receipt of the claim
or the date entitlement arose, whichever is
later. 38 U.S.C.A. § 5110(a) (West 2014); 38
C.F.R. § 3,400 (2015). With regard to the date
of entitlement, the term "date entitlement
arose" is not defined in the current statute or
regulation. However, it is the date when the
F21

V

claimant met the requirements for the benefits
sought, which is determined on a "facts found"
basis.

38 U.S.C.A. § 5110(a); McGrath v.

Gober, 14 Vet. App. 28, 35 (2000). An effective
date generally can be no earlier than the "facts
found." DeLisio v. Shinseki, 25 Vet. App. 45
(2011). These "facts found" include the date
the disability first manifested and the date
entitlement to benefits was authorized by law
and regulation.

See generally 38 C.F.R. §

3.400. For instance, if a claimant filed a claim
for benefits for a disability before he actually
had the disability, the effective date for
benefits can be no earlier than the date the
disability first manifested. Ellington v. Peake,
541 F.3d 1364, 1369-70 (Fed. Cir. 2008).
F22

(

With regard to the date of claim, a claim is
defined as a formal or informal communication
in writing requesting a determination of
entitlement,

or

evidencing

a

belief

in

entitlement, to a benefit. 38 C.F.R. § 3.1(p).
Any communication or action that (1) indicates
an intent to apply for one or more VA benefits
and (2) identifies the benefit sought may be
considered an informal claim. 38 C.F.R.
§ 3.155(a).

When determining the effective

date of an award of compensation benefits, VA
must review all the communications in the
file, after the last final disallowance of the
claim, that could be interpreted to be a formal
or informal claim for benefits.

Servello v.

Derwinski, 3 Vet. App. 196, 198 (1992). VA
F23

has a duty to fully and sympathetically
develop the Veteran's claim to its optimum,
which includes

determining all potential

claims raised by the evidence and applying all
relevant laws and regulations.

Harris v.

Shinseki, 704 F.3d 946, 948-49 (Fed. Cir.
2013); Roberson v. Principi, 251 F.3d 1378
(Fed. Cir. 2001).

A TDIU may be assigned if the Veteran is
unable to secure or follow a substantially
gainful occupation as a result of serviceconnected disabilities, provided that: if the
Veteran has only one such disability, the
disability must be rated at 60 percent or more;
or, if the Veteran has two or more disabilities,
F24

at least one disability is rated at 40 percent or
more, and additional disabilities bring the
Veteran's combined disability rating to 70
percent or more.

38 C.F.R. §§ 3.340, 3.341,

4.16(a) (2015). Nevertheless, even when the
percentage

requirements

are

not

met,

entitlement to TDIU on an extraschedular
basis may be granted in exceptional cases
when the veteran is unable to secure and
follow a substantially gainful occupation by
reason of service-connected disabilities.
\

38

C.F.R. § 4.16(b).

In this case, the Veteran has been granted
service connection for multiple disabilities.
The Veteran's combined evaluation was 40%
F25

effective October 31, 2001, due to serviceconnected residuals of appendectomy (0%),
gastroesophageal

reflux

disease

(GERD)

(30%), and chronic lumbosacral strain (20%).
Effective March 14, 2003, the combined
evaluation was 70%, due to service-connected
GERD (3.0%), chronic lumbosacral strain
(40%),

right

neuropathy

leg
(20%),

radiculopathy/peripheral
and

residuals

of

appendectomy (0%).

In a June 2002 letter, the Veteran stated that
she was unable to drive longer than 30
minutes, sit longer than one hour, or stand
longer than

15 minutes.

The Veteran

expressed fear that the school she was
F26

attending would not provide accommodations
to allow her to continue her studies, and that
she would therefore be unable to pursue her
desired future career.

In a claim received by the RO on March 14,
2003,

the

Veteran

requested

service

connection for right and left leg conditions
secondary to her service-connected lumbar
spine disability.

In May 2003, the Veteran's physician wrote a
letter to the Veteran’s university requesting
that they permit the Veteran additional time
to complete her coursework due to the
limitations from the chronic pain in her back.
F27

The

physician

stated

the

Veteran

had

difficulty standing or sitting for long periods of
time.

In a June 2003 reply, the Veteran's

university

agreed

to

the

necessary

accommodations.

In a July 8, 2003 statement, the Veteran
reported frequent falls due to her service
connected

lumbar

spine

disability,

and

reported that she was experiencing increasing
difficulty going to her classes.

In a June 2004 letter from Mid Florida
Community Services, it was noted that the
Veteran volunteered 207 hours with the
Osteen
F28

Head Start Center from 2003 until 2004,
where she served on the parent committee, as
a policy council representative, as a classroom
volunteer, as a field trip chaperone, and on
several additional committees.

On January 11, 2006, the RO received from
the Veteran an application for increased
compensation based on unemployability. The
Veteran reported that she had been employed
as a teacher until May 2001.

In an October 2007 letter from the Florida
Department of Education, the Veteran was
notified that it had been determined that she
was not eligible for vocational rehabilitation
F29

service because her disability was too severe at
that time for rehabilitation service to result in
an employment outcome.

In

a March 2008 letter, the Veteran's

physician, Dr. MM, reported that due to her
cervical and lumbar disc disease, the Veteran
was unable to engage in any occupation due to
her inability to bend, lift, reach, squat or kneel
without severe discomfort; inability to sit for
an extended period of time; inability to walk
more than a short distance; and inability to
stand for any length of time.

In an

accompanying Loan Discharge Application,
Dr. MM wrote that the Veteran was unable to

F30

work and earn money in any capacity as of
March 1, 2003 due to cervical disc disease and
lumbar disc disease.

In an August 2008 rating decision, the RO
granted TDIU, effective March 14, 2003. In a
September 2008 rating decision, the RO
informed the Veteran that the original March
14, 2003 date of entitlement to a grant of
TDIU was in error. The RO then changed the
date of entitlement to TDIU to November 22,
2003, which the RO determined to be the
actual

date

of eligibility.

explanation was provided.

No

further

In a June 2011

statement of the case, the RO informed the
Veteran that the November 22, 2003 date was
F31

also wrong; and that the correct effective date
was January 11, 2006, the date that the
Veteran's claim of entitlement to TDIU was
received; the RO did not, however, effectuate
that change.

Based on the foregoing, the Board finds that
entitlement to an effective date earlier than
November 22, 2003 for the grant of TDIU is
not warranted. Resolving all reasonable doubt
in the Veteran's favor, the medical evidence
shows that she was unable to follow a
substantially gainful occupation as of March 1,
2003 due to her cervical spine and lumbar
spine disabilities.

See March 2008 Dr. MM

letter. The Board notes, however, that the
F32

Veteran's cervical spine disability was not
service-connected until April 28, 2004.

See

January 24, 2006 Rating Decision. Dr. MM's
letter was not submitted to the RO until April
2008.

The Veteran was not entitled to a

schedular TDIU until March 14, 2003, when
her lumbar spine disability evaluation was
increased to 40 percent, and her combined
disability evaluation was 70 percent. See 38
C.F.R. §§ 3.340, 3.341, 4.16(a).

It appears

there may have been evidence that the
requirements for an extra-schedular TDIU
were warranted as of March 1, 2003. See 38
C.F.R. § 4.16(b). The Veteran's formal claim
for a TDIU was received on January 11, 2006.

F33

In short, the medical evidence shows that the
Veteran could not work as of March 1, 2003
thus, this is the date of potential extraschedular entitlement. The Veteran met the
schedular requirements for TDIU on March
14, 2003, thus, this is the date of schedular
entitlement. The date of entitlement to TDIU
is therefore either March 1, 2003 or March 14,
2003, and the date of the claim is January 11,
2006.

Thus, the proper effective date is

January 11, 2016. The Veteran is already in
receipt of an effective date of November 22,
2003 for the grant of TDIU. Accordingly, to be
entitled to an effective date for TDIU prior to
November 22, 2003, there must be a formal or
informal claim for TDIU between March 1,
F34

2003 and November 22, 2003. A TDIU claim
prior to March 1, 2003 would fail, as the
medical evidence does not show that the
Veteran was unable to work prior to that date.

The record from March 1, 2003 to November
22, 2003 does not contain any document or
assertion that constitutes a formal or informal
claim for TDIU.

Although the Veteran

repeatedly expressed concern about difficulty
1;

pursuing

higher

education

due

to

her

disabilities, the evidence shows that the
Veteran's school allowed her accommodations
for the 2003 year and she was able to attend.
See June 2003 letter from Liberty University.
In addition, the Veteran did extensive
F35

volunteer work during the 2003 to 2004 school
year. See June 2004 letter from Mid Florida
Community Services.

Although the date on

which the entitlement to TDIU arose predates
the Veteran's January 11, 2006 date of claim,
pursuant to 38 C.F.R. § 3.400, the earliest date
on which entitlement to a TDIU can be
granted is either the date the entitlement
arose, or the date the claim was received,
whichever is later in time. As the date of the
Veteran's claim for TDIU was later in time
than the date the entitlement arose, by law
V

the date of the Veteran's claim is the proper
effective date for entitlement to a TDIU.

F36

In an April 2015 statement, the Veteran
asserted that VA erred in failing to provide
her with

an

examination following

the

submission of an informal claim for benefits in
1995. It appears that the Veteran is arguing
that had VA promptly

scheduled those

examinations, she would have been assessed
as totally and permanently disabled sooner.
The Veteran also appears to argue that her
psychiatric

disorder

should

adjudicated

sooner,

and

have

that

it

contributed to her unemployability.

been
also
The

Veteran further asserted that VA should
afford great weight to the March 2008
statement from Dr. MM in which Dr. MM
F37

reported that the Veteran was totally and
permanently disabled due to her disabilities.
Despite any allegations that VA failed to
promptly

provide

the

Veteran

with

an

examination following an informal 1995 claim,
the letter from Dr. MM, on which the Veteran
asks us to rely, states that she was unable to
work as of March 1, 2003.

Moreover, the

record shows that the Veteran was employed
until 2001.

Again, although the date of

entitlement predates the date of the claim, the
date of the claim remains the proper effective
date for the grant of TDIU. The Veteran is
already in receipt of an effective date earlier
than January 11, 2006, and the Board does not
disturb that determination; however,
F38

)

!

entitlement to an effective date earlier than
November 22, 2003 is denied. 38 U.S.C.A. §§
5101, 5110 (West 2014); 38 C.F.R. §§ 3.102,
3.400 (2015). As the evidence preponderates
against the claim, there is no reasonable doubt
to be resolved. Gilbert v. Derwinski, 1 Vet.
App. 49, 53 (1990).

ORDER
Entitlement to service connection for tension
headaches

as

secondary to the

service-

connected cervical spine disability is granted.

Entitlement to an effective date earlier than
November 22, 2003 for the grant of TDIU is
F39

denied.

REMAND
With regard to the Veteran's claims of
entitlement to service connection for a right
shoulder disorder and for labyrinthitis with
vertigo, remand is required to obtain Social
Security Administration (SSA) records, and to
afford the Veteran adequate VA examinations.

VA's duty to assist claimants to obtain
evidence needed to substantiate a claim
includes making as many requests as are
necessary to obtain relevant records from a
Federal department or agency, including, but
not limited to, the Social Security
F40

Administration (SSA). 38 U.S.C.A. § 5103A
(West 2014); 38 C.F.R. § 3.159(c) (2015); Golz
v. Shinseki, 590 F.3d 1317 (Fed. Cir. 2010). At
the

October 2015

hearing,

the Veteran

indicated that she may be in receipt of SSA
benefits. The claims file does not contain a
copy of the decision to grant benefits, or the
records upon which that decision was based, or
an indication that attempts were made to
obtain these records.

Therefore, the AOJ

should attempt to obtain the Veteran's SSA
records.

Regarding the Veteran's claim of entitlement
to service connection for a right shoulder
F41

disorder, remand is required to secure an
adequate VA opinion regarding the nature and
etiology

of any

currently

present

right

shoulder disorder.

At a May 2011 VA shoulder examination, the
Veteran reported pain beginning at the base of
her neck and radiating to her shoulder. The
examiner
arthritis

noted
of

the

minimal
right

degenerative
shoulder

and

acromioclavicular. The examiner stated that
the Veteran's shoulder pain was referred pain
from her cervical disc disease and not related
to any shoulder pathology. The examiner then
opined that the Veteran's arthritic changes
were unrelated to service, as the Veteran's
F42

i.

service treatment records were silent for right
shoulder injury or pathology.

This opinion

was previously determined to be inadequate
by the Board in a June 2014 decision as the
examiner failed to consider August 1989 inservice treatment for right shoulder pain
following a lifting injury.

The

Veteran

was

afforded

another

shoulder examination in March 2015.
examiner

noted

a

current

VA
That

diagnosis

of

degenerative arthritis of the right shoulder,
and opined that the Veteran's arthritis was
less than likely related to her military service.
In support of that opinion, the examiner noted
F43

that

the

Veteran

had

one

documented

complaint of shoulder pain in 1989, and no
objective shoulder abnormality until 10 years
after service. The Board finds the opinion of
the March 2015 examiner to be inadequate as
it is supported by an insufficient rationale.
Merely noting the one in-service injury and
delayed onset of arthritic changes, without
more,

does

not providing a context or

explanation for the conclusion that the
Veteran's current right shoulder disorder is
unrelated to her military service.

The

examiner also failed to address whether any of
the Veteran's right shoulder symptoms were
etiologically related to her service-connected
cervical spine disorder.
F44

Since the March 2015 VA examination, the
Veteran

has

made

additional

assertions

regarding the etiology of her right shoulder
disability that have not yet been addressed by
a VA examiner. In an April 2015 letter, the
Veteran asserted that while she did not have
any additional in-service complaints of right
shoulder pain, her duties as a data processor
technician required her to regularly lift heavy
objects that caused the later development of
arthritis in the right shoulder. At an October
2015 hearing, the Veteran reported that her
shoulder symptoms, identified as pain and
spasms, were related to her neck. On remand,
all

the

Veteran's

contentions

addressed by the VA examiner.
F45

must

be

With regard to the Veteran's claim for service
connection for labyrinthitis, the Veteran was
afforded a VA examination in June 2006. The
examiner diagnosed labyrinthitis, but stated
that they were unable to opine whether
labyrinthitis was etiologically related to the
Veteran's period of active service without
resorting to mere speculation. No explanation
was provided, and the Board finds that opinion
to be inadequate.

On remand, an adequate

opinion with a fully articulated rationale is
necessary.

If an opinion cannot be reached

without resort to mere speculation, that too
must be supported by a fully articulated
rationale.
F46

Accordingly, the case is REMANDED for the
following action:

1. Contact the SSA and obtain a copy of
that

agency's

Veteran's

claim

decision
for

concerning

disability

the

benefits,

including any medical records used to make
the decision. If any requested records are not
available, or the search for any such records
otherwise yields negative results, that fact
must clearly be documented in the claims file.
Efforts to obtain these records must continue
»*■

until it is determined that they do not exist or
that further attempts to obtain them would be
futile. The nonF47

existence or unavailability of such records
must

be

verified

and

documented for the record.

this

should

be

Required notice

!

must be provided to the Veteran.

2. Contact the appropriate VA Medical
Center(s)and obtain and associate with the
claims

file

all

outstanding

records

of

treatment. If any requested records are not
available, or the search for any such records
otherwise yields negative results, that fact
must clearly be documented in the claims file.
Efforts to obtain these records must continue
until it is determined that they do not exist or
that further attempts to obtain them

F48

would be futile.

The non-existence or

unavailability of such records must be verified
and this should be documented for the record.
Required notice must be provided to the
Veteran.

3. Contact the Veteran and afford her
the opportunity to identify by name, address
and dates of treatment or examination any
relevant medical records. Subsequently, and
after securing the proper authorizations where
necessary, make arrangements to obtain all
the records of treatment or examination from
all the sources listed by the Veteran which are
not already on file. All information obtained
must be made part of the file. All attempts to
F49

secure this evidence must be documented in
the claims file, and if, after making reasonable
efforts to obtain named records, they are not
able to be secured, provide the required notice
and opportunity to respond to the Veteran.

4.

After any additional records are

associated with the claims file, provide the
Veteran with an appropriate examination to
determine the nature and etiology of any
currently present right shoulder disorder, to
include tendinosis, cervical radiculopathy, and
degenerative arthritis. The entire claims file,
including a copy of this remand, should be
made available to and be reviewed by the
examiner. Any indicated tests and studies
F50

must be accomplished and all clinical findings
must be reported in detail and correlated to a
specific diagnosis.

An explanation for all

opinions expressed must be provided.

The examiner is requested to provide the
following information and opinions:

(a) Wether it is at least as likely as not (50
percent or greater probability) that each
currently present right shoulder disorder,
including tendinosis, cervical radiculopathy,
and degenerative arthritis, had onset in, or is
otherwise related to, the Veteran's period of
active service. The examiner is asked to
F51

to consider: (1) the Veteran's August 1989
right shoulder injury with pain; (2) the
Veteran's statement that her right shoulder
disorder is etiologically related to repeatedly
lifting heavy objects while in service.

(b) Whether it is at least as likely as not (50
percent or greater probability), that each
currently present right shoulder disorder,
including tendinosis, cervical radiculopathy,
and degenerative arthritis, is caused by her
service-connected cervical spine disability.
The examiner is asked to consider: (1) the
August 2005 private physician diagnosis of
cervical radiculopathy; (2) The May 2011 VA
F52

examiner's opinion that the Veteran's shoulder
pain was referred pain from her cervical disc
disease.

(c) Whether it is at least as likely as not (50
percent or greater probability) that each
currently present right shoulder disorder,
including tendinosis, cervical radiculopathy,
and degenerative arthritis, is aggravated
(chronically worsened beyond the natural
progress of the disability) by her cervical spine
disability.

If aggravation is found, ( the

examiner should attempt to quantify the
degree of additional disability resulting from
the aggravation.
F53

5. After any additional records are associated
with the claims file, provide the Veteran with
an appropriate examination to determine the
nature and etiology of the Veteran's claimed
labyrinthitis,

characterized

by

dizziness,

tinnitus, and difficulty balancing. The entire
,/

claims file, including a copy of this remand,
should be made available to and be reviewed
by the examiner.

Any indicated tests and

studies must be accomplished and all clinical
findings must be reported in detail and
correlated to a specific diagnosis.

An

explanation for all opinions expressed must be
provided.

The examiner must provide an opinion
F54

regarding whether it is at least as likely as not
(50 percent or greater probability) that the
claimed

labyrinthitis

was

caused

or

aggravated by the Veteran's military service.
The examiner must specifically address the
following:

(1) the Veteran's

separation

examination noting "ETDx: causing vertigo;"
(2) the Veteran's separation report of medical
history in which she reports dizziness and the
accompanying physician note that reported
the

Veteran

had

episodes

of dizziness

consistent with labyrinthitis; (3) a December
2004

private

medical

record

noting

longstanding complaints of dizziness; (4) a
May 2005 VA progress note that reported the
Veteran had episodes of dizziness since her
F55

time in the military; (5) a November 2009
private

medical

record

noting that

the

Veteran's intermittent vertigo and tinnitus
were

related to

a peripheral vestibular

dysfunction; and (6) the June 2006 VA
examination.

6.

Notify the Veteran that it is her

responsibility to report for any scheduled
examination

and

to

cooperate

in

the

development of the claims, and that the
consequences for failure to report for a VA
examination without good cause may include
denial of the claims. 38 C.F.R. §§ 3.158, 3.655
(2015). In the event that the Veteran does not
report for any scheduled examination,
F56

documentation must be obtained which shows
that notice scheduling the examination was
sent to her last known address. It must also
be indicated whether any notice that was sent
was returned as undeliverable.

7. Review the examination reports to ensure
complete compliance with the directives of this
remand.

If the report is deficient in any
<

manner, the AOJ must implement corrective
procedures. Stegall v. West, II Vet. App. 268,
271(1998).
i.

8. After completing the above action, and any
other development as may be indicated by any
response received as a consequence of the
F57

\

actions taken in the paragraphs above, the
claims must be readjudicated. If the claims
remain denied, a supplemental statement of
the case must be provided to the Veteran.
After the Veteran has had an adequate
opportunity to respond, the appeal must be
returned to the Board for appellate review.

The Veteran has the right to submit additional
evidence and argument on the matter or
matters

the

Board

has

remanded.

Kutscherousky v. West, 12 Vet. App. 369
(1999).

This claim must be afforded expeditious
treatment. The law requires that all claims
F58

i

that are remanded by the Board of Veterans'
Appeals or by the United States Court of
Appeals for Veterans Claims for additional
development or other appropriate action must
be handled in an expeditious manner. See 38
U.S.C.A. §§ 5109B, 7112 (West 2014).

K. MILLIKAN
Veterans Law Judge, Board of Veterans’
Appeals
Department of Veterans Affairs

F59

